TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                                     RECOVERY ACT


                     Concerns About Contracting Officer’s
                      Technical Representatives That Are
                    Relevant to the American Recovery and
                    Reinvestment Act of 2009 Procurements



                                           July 23, 2010

                              Reference Number: 2010-11-087




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                         HIGHLIGHTS


CONCERNS ABOUT CONTRACTING                          WHAT TIGTA FOUND
OFFICER’S TECHNICAL
                                                    IRS procurements funded by the Recovery Act
REPRESENTATIVES THAT ARE                            may be at risk of not being performed in
RELEVANT TO THE AMERICAN                            accordance with the terms and conditions of the
RECOVERY AND REINVESTMENT ACT                       contracts and within the cost and schedule
OF 2009 PROCUREMENTS                                requirements. Our prior audit concluded that
                                                    COTRs were not performing the day-to-day
                                                    contract oversight or the actual physical receipt
Highlights                                          and acceptance of contract deliverables for the
                                                    procurements to which they were assigned.
Final Report issued on July 23, 2010                Instead, these COTRs limited their involvement
                                                    to administrative functions and relied on program
Highlights of Reference Number: 2010-11-087         office employees to determine whether the
to the Internal Revenue Service Deputy              goods or services provided by the contractor
Commissioner for Operations Support.                were acceptable. However, these program
                                                    office employees were never formally delegated
IMPACT ON TAXPAYERS                                 COTR authority by the responsible Contracting
The Contracting Officer’s Technical                 Officer and had not received training to perform
Representatives (COTR) workforce is a key           their contract administration roles.
internal control to ensure that contractors are     While IRS management has implemented some
meeting the Federal Government’s interest in        of the corrective actions they planned as a result
terms of providing deliverables that are of high    of our findings, a number of those corrective
quality, complete, timely, and cost effective.      actions are not scheduled to be implemented
TIGTA identified weaknesses in COTR contract        until December 2010. Until these corrective
administration, reported in a prior TIGTA audit     actions are implemented to strengthen contract
report, that may present a risk to American         administration, IRS Recovery Act procurements
Recovery and Reinvestment Act of 2009               are at risk that goods and services received are
(Recovery Act) procurements. If the IRS’            not in compliance with the terms and conditions
contract administration is not operating            of the contracts or within the cost and schedule
effectively, the IRS cannot ensure that payments    requirements.
are made only to contractors who perform in
accordance with contract terms and conditions       WHAT TIGTA RECOMMENDED
and that Recovery Act funds are not being
                                                    TIGTA made no recommendations in this report.
misspent.
                                                    However, key IRS management officials
WHY TIGTA DID THE AUDIT                             reviewed it prior to issuance and agreed with the
                                                    facts and conclusions presented.
The Office of Management and Budget
supplemental guidance for the Recovery Act
requires that Federal agencies have sufficient
qualified staff available for monitoring
performance to mitigate risks when other than
firm fixed-price contract types are proposed.
Another guideline requires Federal agencies to
evaluate acquisition workforce needs to appoint
qualified personnel with certification levels
appropriate to the complexity of Recovery Act
projects. The overall objective of this audit was
to report observations identified regarding the
contract administration issues cited in a prior
TIGTA report that present a risk for
procurements funded under the Recovery Act.
                                               DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                July 23, 2010


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Concerns About Contracting Officer’s Technical
                             Representatives That Are Relevant to the American Recovery and
                             Reinvestment Act of 2009 Procurements (Audit # 201010115)

 This report presents the observations identified regarding the contract administration issues cited
 in a prior report 1 that present a risk for procurements funded under the American Recovery and
 Reinvestment Act of 2009 (Recovery Act). 2 This report is consistent with the Office of
 Management and Budget guidance 3 to identify high-risk programs and create quicker turnaround
 reporting. This review was conducted as part of the Treasury Inspector General for Tax
 Administration’s Fiscal Year 2010 Annual Audit Plan and addresses the major management
 challenge of Tax Law Changes for Recovery Act Legislation.
 The Recovery Act provides separate funding to the Treasury Inspector General for Tax
 Administration through September 30, 2013, to be used in oversight activities of Internal
 Revenue Service (IRS) programs. This audit was conducted using Recovery Act funds.
 We did not make any recommendations in this report. However, key IRS management officials
 reviewed it prior to issuance and agreed with the facts and conclusions presented.



 1
   Controls Over the Contracting Officer’s Technical Representatives Workforce Were Ineffective, Resulting in
 Significant Risks to the Government (Reference Number 2009-10-139, dated September 30, 2009).
 2
   Pub. L. No. 111-5, 123 Stat. 115 (2009).
 3
   Updated Implementing Guidance for the American Recovery and Reinvestment Act of 2009 (dated April 3, 2009).
                      Concerns About Contracting Officer’s
                  Technical Representatives That Are Relevant
                  to the American Recovery and Reinvestment
                           Act of 2009 Procurements


Copies of this report are also being sent to the IRS managers affected by the report. Please
contact me at (202) 622-6510 if you have questions or Nancy A. Nakamura, Assistant Inspector
General for Audit (Management Services and Exempt Organizations), at (202) 622-8500.




                                                                                               2
                                 Concerns About Contracting Officer’s
                             Technical Representatives That Are Relevant
                             to the American Recovery and Reinvestment
                                      Act of 2009 Procurements




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          Recovery Act Procurements May Be at Risk Due to Unimplemented
          Corrective Actions Regarding Contract Administration...............................Page 4

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 7
          Appendix II – Major Contributors to This Report ........................................Page 8
          Appendix III – Report Distribution List .......................................................Page 9
           Concerns About Contracting Officer’s
       Technical Representatives That Are Relevant
       to the American Recovery and Reinvestment
                Act of 2009 Procurements




                  Abbreviations

CO          Contracting Officer
COTR        Contracting Officer’s Technical Representative
IRS         Internal Revenue Service
OMB         Office of Management and Budget
                            Concerns About Contracting Officer’s
                        Technical Representatives That Are Relevant
                        to the American Recovery and Reinvestment
                                 Act of 2009 Procurements




                                            Background

Enacted on February 17, 2009, the American Recovery and Reinvestment Act of 2009
(Recovery Act) 1 contained both spending and tax provisions of $787 billion over 10 years
designed to stimulate the national economy by creating and retaining jobs. The Internal Revenue
Service (IRS) is charged with administrating tax law changes 2 contained in the Recovery Act. In
April 2009, the IRS received its appropriation of $203 million in Recovery Act funds 3 to
implement necessary changes as a result of Recovery Act provisions. These Recovery Act
procurements will be used for reprogramming of IRS computer systems and for updating related
tax forms, publications, and customer services to assist taxpayers. As of April 2010, the IRS has
initiated or is in the process of initiating 26 of the 40 planned procurement actions on
Recovery Act program initiatives with a total contract value of $81.9 million, of which
approximately $78.5 million has been obligated. As of April 29, 2010, total payments of
$39.2 million have been dispersed to contractors for 22 of the 26 procurement actions.
The Federal Acquisition Regulations is the IRS’ primary guidance for processing and managing
contract activities, including those related to the Recovery Act. The Regulations stipulate that
only a Contracting Officer (CO) with the proper warrant authority can legally bind, amend, or
terminate a contract on behalf of the Federal Government. The CO may delegate authority to a
Contracting Officer’s Technical Representative (COTR) or equivalent designated official 4 to
administer the technical aspects of contracts after award. The CO is responsible for nominating
and selecting the appropriately trained and qualified COTR to be assigned to any contract that
exceeds $100,000 (the simplified acquisition threshold), 5 and the CO should ensure that the
COTR receives and signs a copy of the appointment letter that reflects the scope of his or her
duties. The COTR’s primary role is to provide technical direction, monitor contract
performance, and maintain an arms-length relationship with the contractor, ensuring that the
Government pays only for the services, materials, and travel authorized and delivered under the



1
  Pub. L. No. 111-5, 123 Stat. 115 (2009).
2
  The Recovery Act included more than 50 tax law provisions that the IRS is charged with administering. These tax
changes included refundable credits, such as the Making Work Pay and First-Time Homebuyer Credits.
3
  This appropriation amount included $80 million for the Health Coverage Tax Credit program and $123 million for
supporting tax provision changes cited in the Recovery Act.
4
  The Contracting Officer can appoint COTRs or equivalent personnel, including alternate, sub-COTRs, and
Government Task Managers to serve the post-award contract administration role. These participants must also have
official designation letters.
5
  Purchases of supplies or services less than $100,000 use simplified procedures described in Federal Acquisition
Regulations Part 13. Simplified acquisitions include purchase card buys, purchase orders, electronic purchasing,
task and delivery orders against established contracts, imprest fund buys, and blanket purchase agreements.
                                                                                                         Page 1
                              Concerns About Contracting Officer’s
                          Technical Representatives That Are Relevant
                          to the American Recovery and Reinvestment
                                   Act of 2009 Procurements


contract. COTRs are not authorized to delegate any of their procurement responsibilities to other
IRS personnel.
The Office of Management and Budget (OMB) 6 issued several supplemental guidance
documents 7 that outlined steps for implementing the Recovery Act and also clarified the new
requirements for processing procurements. The OMB’s initial implementing guidance issued on
February 18, 2009, included the following requirements:
    •    Agencies should have sufficient qualified staff available for monitoring performance to
         mitigate risks when other than fixed-price contract types are proposed and should
         evaluate workforce needs in order to appoint qualified COs, COTRs, and Program
         Managers with certification levels appropriate to the complexity of Recovery Act
         projects.
    •    Agencies should determine whether final action has been taken regarding weaknesses or
         deficiencies disclosed by prior audits and investigations in program areas under which
         Recovery Act funds are authorized. If final action has not been completed, agencies
         should: (1) expedite such action to preclude the continuance of such weaknesses or
         deficiencies in the administration of Recovery Act funded programs, or (2) provide an
         explanation of why such corrective actions cannot or should not be taken in the
         administration of Recovery Act funded programs.
Prior to the passage of the Recovery Act, we initiated an audit 8 concerning whether the IRS
COTRs were properly managed and functioning in a manner, as directed by the responsible CO
and applicable guidance, which would ensure that goods and services were received in
accordance with the terms and conditions of the contracts and within the cost and schedule
requirements.
As that audit came to its conclusion, we noted that our findings may also relate to Recovery Act
procurements. Consistent with OMB guidance 9 to identify high-risk programs and create
quicker turnaround reporting, this report provides observations concerning the ineffective




6
  The OMB has the primary responsibility for developing Government-wide rules and procedures to ensure funds
are awarded and distributed in a prompt and fair manner; uses of funds are transparent to the public; and steps are
taken to mitigate fraud, waste, and abuse.
7
  The OMB issued implementing guidance on February 18, 2009; April 3, 2009; June 22, 2009; and
December 18, 2009.
8
  Controls Over the Contracting Officer’s Technical Representatives Workforce Were Ineffective, Resulting in
Significant Risks to the Government (Reference Number 2009-10-139, dated September 30, 2009).
9
  Updated Implementing Guidance for the American Recovery and Reinvestment Act of 2009 (Memorandum
Number M-09-15, dated April 3, 2009).
                                                                                                               Page 2
                             Concerns About Contracting Officer’s
                         Technical Representatives That Are Relevant
                         to the American Recovery and Reinvestment
                                  Act of 2009 Procurements


performance of COTR contract administration 10 responsibilities that were reported in our
previous audit that may have implications for the IRS in ensuring Recovery Act procurements
are delivered in compliance with the legislation and the Federal Acquisition Regulations. While
we identified other concerns in our prior audit report, in this report we are highlighting only the
observations that are directly tied to the new requirements for Recovery Act procurements.
This review was performed at the IRS Office of Procurement in Oxon Hill, Maryland, during the
period April through May 2010. Because this report includes observations based on a prior
report and limited additional audit work to determine what progress the IRS made on its
proposed corrective actions to the prior report’s recommendations, this audit was not conducted
in accordance with generally accepted government auditing standards and was significantly
reduced in scope. We also did not perform detailed testing of Recovery Act invoices, the COTR
procurement monitoring duties, or compliance with OMB implementing guidance. We will
cover these areas in other ongoing or planned audits. 11 Under the Recovery Act,
Inspectors General are expected to be proactive and focus on prevention. We believe this report
is responsive to this intent. Detailed information on our audit objective, scope, and methodology
is presented in Appendix I. Major contributors to the report are listed in Appendix II.




10
   Contract administration involves those activities performed by Government officials after a contract has been
awarded to determine how well the Government and the contractor performed to meet the requirements of the
contract. It encompasses all dealings between the Government and the contractor from the time the contract is
awarded until the work has been completed and accepted or the contract terminated, payment has been made, and
disputes have been resolved. As such, contract administration constitutes that primary part of the procurement
process that assures the Government gets what it paid for.
11
   The audits include the Post-Award Compliance of Procurement Actions With the American Recovery and
Reinvestment Act of 2009 and the Incurred Cost Review of Recovery Act Funded Procurements.
                                                                                                           Page 3
                             Concerns About Contracting Officer’s
                         Technical Representatives That Are Relevant
                         to the American Recovery and Reinvestment
                                  Act of 2009 Procurements




                                      Results of Review

Recovery Act Procurements May Be at Risk Due to Unimplemented
Corrective Actions Regarding Contract Administration
As a result of our prior audit, we reported that IRS contract administration was ineffective to
ensure that the Federal Government was receiving the appropriate goods and services. While
IRS management has implemented some of the corrective actions they planned as a result of our
findings, a number of those corrective actions are not scheduled to be implemented until
December 2010. Until the IRS addresses these unresolved issues, IRS Recovery Act
procurements totaling $78.5 million will continue to be at risk that goods and services received
are not in accordance with the terms and conditions of the contracts or within the cost and
schedule requirements.
We identified the following COTR contract administration concerns from our prior audit report
that may still present a risk to IRS Recovery Act procurements.
     •   COTRs were not always performing all of their oversight duties, including inspections 12
         and physical receipt 13 and acceptance 14 of deliverables. These oversight tasks are
         important to determining whether the deliverables are in compliance with contract
         requirements before the Government pays the contractor. Our prior audit showed that
         many COTRs relied upon program office employees to determine whether goods and
         services provided by the contractor were acceptable. However, these program office
         employees were not formally authorized 15 or properly trained and certified in contract
         administration activities to perform these tasks and responsibilities. When unauthorized
         personnel inspect deliverables, make recommendations regarding contract payments, or
         instruct the vendor to perform work outside the scope of the contract, there is a risk that
         unauthorized commitments can occur or work may not be completed in accordance with

12
   An inspection is the process most often used to determine acceptability.
13
   Receipt is defined as the documentation of acknowledgement that supplies were received or services were
rendered; this documentation should be retained in the COTR contract file.
14
   Acceptance is the act of an authorized representative of the Government by which the Government assumes
ownership of supplies or approves services rendered. By accepting the supplies or services, the COTR, Alternate
COTR, or Government Representative acknowledges that the supplies or services conform to contract requirements.
15
   While Internal Revenue Service Acquisition Procedure 1001.670-2 Appointment states that COs shall consider
alternatives to COTRs such as receiving officials or points of contact, depending on the type of contract or
deliverables (for procurements with little complexity or post-award contract management requirements like receipt
of office supplies), all contract actions in our audit sample had a formally delegated COTR associated with them due
to the contracts’ complexity and the experience and commitment of personnel needed to manage them effectively.
                                                                                                            Page 4
                              Concerns About Contracting Officer’s
                          Technical Representatives That Are Relevant
                          to the American Recovery and Reinvestment
                                   Act of 2009 Procurements


         contractual requirements. When work is performed as a result of an unauthorized
         commitment, the vendor cannot be paid for the work until a legitimate contract is
         established through “ratification.” 16
     •   COTRs were not requesting and retaining sufficient receipts to verify contractors’
         invoiced labor expenses submitted for payment. When contracts involve labor hour
         charges, the COTRs should perform some type of periodic invoice review to verify that
         the contractors’ personnel time cards, sign-in-sheets, and overtime records support the
         hours and labor rates charges to help assess the reasonableness of the direct labor costs.
         In addition, when the contracts require specific qualifications or experience levels for
         individual contract employees, the labor checks should include verification of those
         qualifications. When the COTRs do not retain the appropriate receipts to verify that
         contractor invoice charges were accurately and properly charged to the Government in
         line with contract requirements and/or payment schedules, the Government cannot
         determine if the contractors provided supplies or services that satisfy the Government
         needs at the price and other contract requirements agreed upon.
To address these concerns, we recommended that the IRS:
     •   Establish and implement cross-cutting guidance that effectively ensures that the IRS
         provides appropriate contract monitoring to reduce acquisition risks.
     •   Identify all IRS employees’ agency-wide performing COTR-related duties and ensure
         that they are formally delegated authority by the responsible CO, appropriately trained,
         and certified in accordance with Federal acquisition requirements.
     •   Reevaluate the current approach and expand the reviews of COTR contract files to ensure
         reviews are routinely performed to substantiate that relevant, accurate, and complete
         documentation is being received, verified, and retained to support the contractors’ billed
         expenses.
In response to the concerns and recommendations we raised in our prior report, IRS management
has taken some of the corrective actions they planned. We determined that the IRS has:
     •   Issued a Service-wide memorandum dated February 25, 2010, on the importance of the
         COTR’s role, contract administration, and procurement monitoring.
     •   Revised a policy and procedures memorandum dated January 1, 2010, to include a
         section for COTR communication documentation in the File Content Checklists.




16
  In a contract ratification action, the ratifying official reviews the facts pertaining to the unauthorized commitment
and determines whether to make the action whole and legally binding after the fact.
                                                                                                               Page 5
                         Concerns About Contracting Officer’s
                     Technical Representatives That Are Relevant
                     to the American Recovery and Reinvestment
                              Act of 2009 Procurements


   •   Revised a second policy and procedures memorandum dated January 1, 2010, to include
       requirements for all COs to meet with COTRs upon appointment and on a periodic basis
       following appointment, and to review COTR administrative files annually.
Our review did not assess the effectiveness of these corrective actions, so we are not commenting
on whether they adequately addressed the reported findings. In addition, these corrective actions
did not address all of the concerns and recommendations we made in our prior report. The IRS
plans to implement additional corrective actions by December 2010, including the following
actions:
   •   Update internal guidance to include a requirement for a standard COTR contract
       administration file checklist.
   •   Provide receiving officials and COTRs with computer-based training on receipt and
       acceptance duties.
   •   Develop and provide training for CO review of COTR contract files.
   •   Develop and provide training for the managers of COTRs and receiving officials on a
       manager’s oversight requirements and responsibilities.
   •   Modify the COTR’s letter of appointment to include requirements for maintaining COTR
       contract files in accordance with the standard checklist, responsibilities of supervisors,
       and a signature line for supervisors to acknowledge their understanding of their
       responsibilities and oversight requirements.




                                                                                          Page 6
                             Concerns About Contracting Officer’s
                         Technical Representatives That Are Relevant
                         to the American Recovery and Reinvestment
                                  Act of 2009 Procurements


                                                                                                Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to report observations identified regarding the contract
administration 1 issues cited in a prior report 2 that present a risk for procurements funded under
the American Recovery and Reinvestment Act of 2009 (Recovery Act). 3 To accomplish this
objective, we:
I.      Reviewed the Recovery Act and appropriate implementing guidance to identify all
        provisions related to contract administration and COTR responsibilities.
II.     Reviewed observations in our prior audit report to identify internal control weaknesses
        and poor business practices relative to contract administration, and specifically to
        COTR duties, that are applicable for procurements funded under the Recovery Act.
III.    Determined whether the IRS implemented any new procedures that could potentially
        strengthen internal controls and mitigate contract performance risks resulting from poor
        contract administration, specifically COTR duties, since March 2009 (the conclusion of
        audit testing for our prior audit mentioned in Step II). This includes corrective actions
        taken as a result of our recommendations in our prior audit report.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We did not assess internal
controls because doing so was not applicable within the context of our objective.




1
  Contract administration involves those activities performed by Government officials after a contract has been
awarded to determine how well the Government and the contractor performed to meet the requirements of the
contract. It encompasses all dealings between the Government and the contractor from the time the contract is
awarded until the work has been completed and accepted or the contract terminated, payment has been made, and
disputes have been resolved. As such, contract administration constitutes that primary part of the procurement
process that assures the Government gets what it paid for.
2
  Controls Over the Contracting Officer’s Technical Representatives Workforce Were Ineffective, Resulting in
Significant Risks to the Government (Reference Number 2009-10-139, dated September 30, 2009).
3
  Pub. L. No. 111-5, 123 Stat. 115 (2009).
                                                                                                          Page 7
                       Concerns About Contracting Officer’s
                   Technical Representatives That Are Relevant
                   to the American Recovery and Reinvestment
                            Act of 2009 Procurements


                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Alicia P. Mrozowski, Director
Darryl J. Roth, Audit Manager
Gary D. Pressley, Lead Auditor
Evan A. Close, Auditor
Chinita M. Coates, Auditor




                                                                                   Page 8
                       Concerns About Contracting Officer’s
                   Technical Representatives That Are Relevant
                   to the American Recovery and Reinvestment
                            Act of 2009 Procurements


                                                                 Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Chief, Agency-Wide Shared Services OS:A
Director, Procurement OS:A:P
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons: Chief, Agency-Wide Shared Services OS:A:F
                 Director, Procurement OS:A:P




                                                                        Page 9
